                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

11   Case Number: A07050026
                                                                                11          Page 1 of 1



         OIG received an anonymous allegation that confidential information provided to an office within
         NSF' was being relayed by staff of that office to subjects of investigations. In addition, the
         complaint alleged that senior staff in that office were abusing time and attendance, practice
         questionable hiring practices and were purchasing illegal drugs on government computers.

         The only allegation received with sufficient specificity to pursue was the first, violation of
         confidentiality. OIG spoke with the office head2 to discuss the matter and ensure that
         confidential information remained so. The office head committed to briefing his staff and
         contractor staff on confidentiality and provided assurances that the information OIG provided
         would remain confidential.
